                               Office of Inspector
                              Corporation for




          PRE-AUDIT SURVEY
                         OF THE
      DISTRICT
             OF COLUMBIA
                       COMMISSION
                                ON
       NATIONALAND COMMUNITY
                           SERVICE

             OIG REPORTNUMBER
                            04-17




                                              Corporation for
                                             NATIONAL
                                             COMMUNI
                                             SERVICEEC




                       Prepared by:

                       KPMG LLP
                    2001 M Street NW.
                 Washington, DC 20036




This report was issued to Corporation management on August 9, 2004. T ere
are no findings in this report and therefore no audit follow up is required.
                                  Office of Inspector General
                        Corporation for ~ a t i o n aand
                                                     l Community Service
                                      Audit Report 04- 17

         Pre-Audit Survey of Corporation for National and Community Service Grants
                                       Awarded to the
            District of Columbia Commission on National and Community Service


OIG Summary

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), retained KPMG LLP to perform a pre-audit survey of the District of ~ o l u m q
Commission on National and Community Service. The objectives of the pre-audit survey 4
to evaluate: (1) the adequacy of the pre-award selection process; (2) the administration of 4
funds; and (3) grant monitoring. The audit period included Program Years 2001-2002 and
2002-2003.

The Commission was awarded Corporation ArneriCorps Formula, Program Development apd
Training, Administrative, Disability, Citizen Corps, and Promise Fellows grants totaling
$2,3Ol,8 17 for Program Years 2001 -2002 and 2002-2003. During the pre-audit survey proBram
years, the auditors noted that the Commission has established effective controls for adminisitering
its Corporation grants. They recommended that a full-scope, incurred cost audit is not requlred.

The Office of Inspector General has reviewed the report and the work papers supporting th$
auditors' conclusions. Our review of the auditors' work papers disclosed no instances whete
KPMG LLP did not comply, in all material respects, with generally accepted government
auditing standards.
                                                  PRE-AUDIT SURVEY OF THE
                                            DISTRICT OF COLUMBIA COMMISSION ON
                                             NATIONAL AND COMMUNITY SERVICE




                                                                     Table of Contents



                                                                                                                                                             'age

Results of Pre-Audit Survey.. .. .......... . . .. . . .. ... ... . . . ... . .... . ... . .. . . .. . ... . . .. .. ................ ........ . ... . . .   ... 1
Background. ...... ... ......... ....... ...................... ....... .... ..... ....... ......... .......... ............... ... .. . ....2

Overview of the District of Columbia Commission on National and Community
   Service. ......... ...... ...... . ... . . . ... .. .......... . ....... ... ... ...... . .. .... ........ ...... . ....... .. ... .......... .. .        . ..2

Objectives, Scope, and Methodology.. .. ............. ........ ......... ............. ... ........ . ......... ... . . . ... . . .                          ...3

Findings and Recommendations.. ..... . .. .... . ......... ..... .. . ..... .... ... . . ......... ... ..... ....... . .. .. ........ . . .                  ...4

Appendix A - Commission Funding: For Program Years 2001-2002 and 2002-2003.. ... . ................. .                                                       .A.1

Appendix B - Detailed Engagement Objectives and Methodology.. ... ................. ... .. . . . . . . ... . .... .. . ..                                    .B. 1
                   KPMG LLP
                   2001 M Street, NW
                   Washington, DC 20036




    June 10,2004                                                                                      1
    Office of Inspector General
    Corporation for National and Community Service:

    At your request, KPMG LLP (KPMG) performed a pre-audit survey of the District of Columbia
    Commission on National and Community Service (Commission). The audit covered funds receivtd by the
    Commission from the Corporation for National and Community Service (Corporation) for progrim Years
    2001-2002 and 2002-2003. The primary purpose of this survey was to provide a preliminary adsessment
    of:

          the adequacy of the Commission's pre-award selection process;
.
          the procedures at the Commission for the fiscal administration of Corporation grants; and
          the effectiveness of the Commission's procedures for monitoring subgrantees.

    We also reported on the recommended scope of additional audit procedures to be perform$d at the
    Commission.

    Results of Pre-Audit Survey
    The Comrn~ssionis a part of the Executive Office of the Mayor of the Government of the qistnct of
    Columb~a(District) The District is annually subject to an Office of Management and Budgdt (OMB)
    Clrcular A-133 aud~tperformed by external aud~tors. However, the Corporation's grants have not been
    ldentlfied as major programs In any of the last three A-133 audlts.

    Based on the results of our limited procedures, our preliminary assessment is that the Commii;sion has
    established effective controls for administering its Corporation grants and that the performance of a full-
    scope, incurred-cost audit is not required. Our assessment is based on the following strengths notbd during
    our pre-audit survey fieldwork:

    Selecting Subgrantees

    According to 45 CFR 5 2550.80(b)(l), "[elach State must administer a competitive process to select
    national service programs to be included in any application to the Corporation for funding." The
    Commission advertises funding availability through mailing lists, newspaper announcem$nts, and
    newsletters. Selection officials sign conflict of interest statements for each application reviewed, and they
    receive an instruction package and use a standard form to evaluate each applicant.

    Administering Grant Funds

    As part of the grant administration process, "[glrantees are responsible for managing the dby-to-day
    operations of grant and subgrant supported activities. Grantees must monitor grant and subgrant
    activities to assure compliance with applicable Federal requirements and that performance goals
    achieved. Grantee monitoring must cover each program, function or activity." See 45 CFR 5

    The Commission has developed and implemented procedures that provide reasonable assuranck that the
    grant funds received from the Corporation are properly administered These procedures inblude the
preparation of accurate Financial Status Reports (FSRs) that are submitted on a timely basi
Corporation.

Evaluating and Monitoring Subgrantees                                                               I




                                                                                                   1
As noted above, the Commission is responsible for monitoring subgrant-supported activities t assure
compliance with applicable Federal requirements and the achievement of performance goal . The
Commission has established controls to evaluate and monitor subgrantees, which include r viewing
program and financial reports and scheduling site visits for each subgrantee during the gran period.
Commission personnel use a standard site visit report form to document the results of each vi it. The
Commission notifies the subgrantees of the results of these site visits, including findings on s engths,
weaknesses, concerns, recommendations, and any necessary follow-up requirements.
                                                                                                    I
Background
                                                                                                    I
The National and Community Service Trust Act of 1993, which amended the National and Co munity
Service Act of 1990, established the Corporation for National and Community Service.
                                                                                                   mi
The Corporation, pursuant to the authority of the Act, awards grants and cooperative agreements to State
commissions, nonprofit entities, tribes, and temtories to assist in the creation of full-time and art-time
national and community service programs. Through these grantees, ArneriCorps members p e r f o q service
to meet educational, human, environmental, and public safety needs throughout the Nation, e$pecially
addressing those needs related to poverty. In return for this service, eligible members may receive/ a living
allowance and post-service educational benefits.

Currently, the Corporation awards approximately three-fourths of ~ t AmeriCorps
                                                                      s            State/National funds to
State commissions. State commissions are required to include 15 to 25 voting members. Each cordunission
has a responsibihty to develop and communicate a vision and ethic of service throughout its State.

The commissions provide AmeriCorps funding to approved applicants for service programs within their
States and are responsible for monitoring these subgrantees' compliance with grant requifements.
Commissions are also responsible for providing training and technical assistance to AmeriCorps $ate and
National Direct programs and to the broader network of service programs in the State. Commis$ions are
prohibited fiom directly operating national service programs.

The Corporation's regulations describe standards for financial management systems that must be
maintained by the State commissions. The standards require, in part, that the commissions paintain
internal controls that provide for accurate, current, and complete disclosure of the finanpial and
programmatic results of financially assisted activities. The commissions must also provide
control and accountability for all grant and subgrant cash, real and personal property, and other ass

Overview of the District of Columbia Commission                                                     I

The District of Columbia Commission, located in Washington, D.C., has received AmeriCorps
from the Corporation since its inception in 2000. Before the inception of the current
predecessor organization received Corporation funding; however, the scope of our
include this predecessor organization. The current Commission operates as an
Executive Office of the Mayor. The Commission has twelve full-time employees.

The Commission is annually subject to an OMB Circular A-133 audit. However, the Com ission's
Corporation grants were not identified as major programs in fiscal years 2001,2002 or 2003.        !'
The Commission provided the following information for Program Years 2001-2002 and 2002-2003:


                                                     Total
                                                  Corporation           Number of
Program year:                                      Funding             Subgrantees




*Appendix A contains more detailed information on funding received from the Corporation during
Program Years 2001-2002 and 2002-2003. Subgrantees could be subject to an OMB Circular A-133 audit
if they expended Federal grant funds of $300,000 from all sources.

Obiectives, Scope, and Methodology
We were engaged by the Office of Inspector General, Corporation for National and Community Sertvice, to
provide an assessment of the systems and procedures in place at the Commission for admiqistering
Corporation grants and for monitoring the fiscal activity of subgrantees. The primary purpose of this pre-
audit survey is to provide a preliminary assessment of:

      the adequacy of the Commission's pre-award selection process;


      the effectiveness of the Commission's procedures for monitoring subgrantees.
                                                                                                  rl
      the procedures used by the Commission for the fiscal administration of Corporation grants; a d
                                                                                                   I




We also reported on the recommended scope of additional audit procedures to be performed, at the
Commission.

Our survey included the following procedures:

      reviewing applicable laws, regulations, grant provisions, the Corporation's State Admznistrative
      Standards Tool, and other information to gain an understanding of legal, statutory, and progrslrnmatic
      requirements;
      reviewing OMB Circular A-133 reports, if applicable, and current program year grant agreeqents for
      the Commission;
      obtaining information fi-om Commission management to complete flowcharts documenfing the
      hierarchy of Corporation grant funding for Program Years 2001-2002 and 2002-2003; and
      performing procedures to achieve the following objectives, detailed in Appendix B: to asFess the
      Commission's internal controls, selection of subgrantees, administration of grant funps, and
      monitoring of subgrantees, including internal controls over reporting service hours and perf4rmance
      accomplishments.

As part of the procedures performed, we documented and tested internal controls in plac
Commission by utilizing inquiries, observations, and an examination of a limited sample
documents. Finally, we summarized the results of our work to support the recommendation
this report. We held an exit conference with Commission management on June 10,2004.
Our procedures were performed in accordance with Government Auditing Standards issued by the




                                                                                               i
Comptroller General of the United States. We were not engaged to, and did not, perform an audi of any
financial statements, and the procedures described above were not sufficient to express an opinio on the
controls at the Commission, or on its compliance with applicable laws, regulations, contracts, an grants.
Accordingly, we do not express an opinion on any such financial statements, or on the Corn ssion's
controls or compliance. Had we performed additional procedures, other matters might have com to our
attention that would have been reported.                                                          1
Findings and Recommendations
We do not have any findings or related recommendations to report.



This report is intended solely for the information and use of the Office of Inspector Gen@al, the
management of the Corporation for National and Community Service, the management of the Dibtnct of
Columbia Commission, and the United States Congress. It is not intended to be and should not be lused by
anyone other than these specified parties.
                                                                                   ndix A



                          Commission Funding




                Corporation for National and Community Service
                Funding to the District of Columbia Commission
                         For the Program Year 200 1-2002




AmeriCorps                                     CNCS                AmeriCorps
 Formula                PDAT Funds          Administrative       Promise Fellows
  Funds                                        Funds                  Funds

 $500,000                 $56,000              $126,945              $4 1,400

 Match                    Match                Match                  Match
                                               $128.000




    f
                                            T
                                            +                          f
        Total Corporation Funds Retained by the Commission: $1 82,945

                  Total Commission Matching Funds: $128,000

            Total Corporation Funds Awarded to Subgrantees: $54 1,400




                        AmeriCorps            AmeriCorps
                         Formula            'rornise Fellows
                                                  Funds
                          $500,000               $41,400

                         Sub Match             Sub Match
                         $1,532,244               $0

                        otal # of SUB!      Total # of SUBS
                               3                    I

                        rota1 # of Sites     Total # of Sites
                              22                    1
                         Commission Funding                        1

       Corporation for National and Community Service
       Funding to the District of Columbia Commission
                For the Program Year 2002-2003




Total Corporation Funds Retained by the Commission: $379,690

        Total Commission Matching Funds: $128,000

  Total Corporation Funds Awarded to Subgrantees: $698,182




           ArneriCorps        ArneriCorps       Citizen Corps
             Formula            Special              Funds
                                 Funds

                                $98,182            $200,000

            Sub Match          Sub Match          Sub Match
                                $126.053              $0

          Total # of SUBS    Total # of SUBS    Total # of SUBS
                                     1                  5

          Total # of Sites   Total # of Sites   Total # of Sites
                             I5
                             Detailed Engagement Objectives and ltlethodology                                       1
Intern a1 Controls
Our objective was to make a preliminary assessment of the adequacy of the Commission's financial syst
                                                                                                                ~
the documentation maintained by the Commission. Our objective was to provide reasonable assura
transactions are properly recorded and accounted for: (1) to permit the preparation of reliable financial
and Federal reports; (2) to maintain accountability over assets; and (3) to demonstrate compliance
regulations, and other compliance requirements.




                                                                                                       4
In order to achieve the above objectives, we identified the following compliance requirements with a di ect and
material effect on the Commission's Corporation grant program: allowed or unallowed activities; al owable
costs; eligibility; matching; period of availability of Corporation funds; suspension and debarment; subr cipient
monitoring; and reporting by the Commission to the Corporation. We then interviewed key Co                 ission
personnel to assess the Commission's controls related to these requirements.

Selecting Subgrantees                                                                                           i
                                                                                                                I
Our objectives were to make a preliminary assessment:
                                                                                                                I
      of the adequacy of the systems and controls utilized by the Commission to select national service
      subgrantees to be included in an application to the Corporation;
      as to whether the Commiss~onevaluated the adequacy of potential subgrantee financial systdms and
                                                                                                                I
      controls In place to admin~stera Federal grant program prior to making the award to the subgranteek; and
      as to whether Comrn~ssioninvolvement in the application process lnvolved any actual or apparent conflict
      of interest.

In order to achieve the above objectives, we Interwewed key Commission management personinel and
documented procedures performed by the Commiss~ondunng the pre-award financial and programmatic risk
assessment of potential subgrantees. We also rev~eweddocumentation to determme ~fconfl~ctof intereist forms
for each subgrantee applicant tested were s~gnedby selection officials annually and maintamed by the
Commission.

Administering Grant Funds
Our objectives were to:

       make a preliminary assessment of the adequacy of the systems and controls utilized by the Com ission to
                                                                                                       1

                                                                                                        r4
       oversee and monitor the performance and progress of funded subgrantees;
                                                                                                            1

       make a preliminary assessment as to whether the Commission's organizational structure, staffing 1 vel, and
       slull mix are conducive to effective grant administration;
       make a preliminary assessment as to whether the Commission provided adequate guidance to su grantees
                                                                                                            ~
       related to the maintenance of financial systems, records, and supporting documentation, and the eporting
       of subgrantee activity;
                                                                                                       i
       make a preliminary assessment of the adequacy of financial systems and documentation maintain
       Commission to support oversight of subgrantees and required reporting to the Corporation
       Financial Status Reports, progress reports, enrollment and exit forms, and change of status
                                                                                                          4
     determine whether the Commission has procedures in place to verify the accuracy and timeliness o reports
     submitted by subgrantees.

In order to achieve the above objectives, we reviewed Financial Status Reports and progress reports sub
                                                                                                          ~
subgrantees, as well as Financial Status Reports submitted by the Commission to the
preliminarily assess the accuracy of the submitted reports.

Evaluating and Monitoring Subgrantees
Our objectives were to:

      make a preliminary assessment of the adequacy of the systems and controls utilized by the Commijsion, in
      conjunction with the Corporation, to implement a comprehensive, nonduplicative evaluatipn and
      monitoring process for subgrantees;
      determine whether the Commission has an established subgrantee site visit program in place andmake a
      preliminary assessment of the effectiveness of its design in achieving monitoring objectives;
      make a preliminary assessment of the adequacy of the Commission's procedures to assess subgrantee
      compliance with Corporation regulations (e.g., regulations governing eligibility of Members, service hour
      reporting, prohibited activities, payment of living allowances to Members, and allowability of costs
      incurred and claimed under the grants by subgrantees, including reported match);
      make a preliminary assessment of the adequacy of the Commission's procedures for obtaining, r
      and following up on findings included in subgrantee OMB Circular A-133 audit reports, where
      determine whether program goals are established, and whether results are reported and comdared to
      program goals; and,
      make a preliminary assessment of the adequacy of the procedures in place to evaluate whether subDantees
      are achieving their intended purpose.
                                                       J

In order to achieve the above objectives, we documented the procedures performed by the Cornmipsion to
evaluate and monitor individual subgrantees. In addition, we judgmentally selected subgrantees and obtdined the
Commission's documentation for site visits. We reviewed the documentation to preliminarily aspess the
adequacy of the procedures performed by the Commission to maintain financial and programmatic corppliance
and related controls at the sites. We also determined whether the Commission received and reviewed OMB
Circular A-133 audit reports from subgrantees.
